                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A03110065                                                                11           Page 1 of 1



         The university1 was selected at random in a proactive review of grants that were expected to
         produce program income. Documentation provided by the University indicated problems in the
         management of program income funds derived from this conference grant2,but also issues
         related to allowable expenses, including compliance with the special conditions of FL26, and
         reimbursements of travel expenses of Federal employees.

         The University returned program income funds not committed to the furtherance of the research,
         and funds that were improperly used to provide an honorarium to a Federal employee.3 Equally
         as important are the administrative changes that the University is putting into place in response to
         this i n ~ e s t i ~ a t i o nThese
                                        . ~ include hiring of additional staff with internal auditing experience to
         improve compliance'with grant conditions, continuing education of principal investigators on
         grant management, new limits on spending authorizations, and more detailed review of grant
         budgets prior to the expenditure of funds from those budgets.

         The initial objectives of the proactive review have been met, and the specific problems in the
         administration of this particular grant have been satisfactorily resolved.

         Accordingly, this case is closed.




         '   Redacted
             Redacted.
             Redacted.
             Redacted.



VSF OIG Fonn 2 (1 1/02)
